<html>
<title> - [H.A.S.C. No. 113-16]IMPACT OF THE CONTINUING RESOLUTION,  SEQUESTRATION, AND DECLINING OPERATIONS AND MAINTENANCE BUDGETS ON MILITARY PERSONNEL AND FAMILY RELATED PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

 
                         [H.A.S.C. No. 113-16]
=====================================================================

                        IMPACT OF THE CONTINUING

                       RESOLUTION, SEQUESTRATION,

                        AND DECLINING OPERATIONS

                        AND MAINTENANCE BUDGETS

                       ON MILITARY PERSONNEL AND

                        FAMILY RELATED PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 13, 2013

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
80-186                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      Colin Bosse, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2013

                                                                   Page

Hearing:

Wednesday, March 13, 2013, Impact of the Continuing Resolution, 
  Sequestration, and Declining Operations and Maintenance Budgets 
  on Military Personnel and Family Related Programs..............     1

Appendix:

Wednesday, March 13, 2013........................................    23
                              ----------                              

                       WEDNESDAY, MARCH 13, 2013
   IMPACT OF THE CONTINUING RESOLUTION, SEQUESTRATION, AND DECLINING 
  OPERATIONS AND MAINTENANCE BUDGETS ON MILITARY PERSONNEL AND FAMILY 
                            RELATED PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Bromberg, LTG Howard B., USA, Deputy Chief of Staff, G-1, U.S. 
  Army...........................................................     6
Jones, Lt Gen Darrell D., USAF, Deputy Chief of Staff for 
  Manpower and Personnel, U.S. Air Force.........................     8
Milstead, LtGen Robert E., Jr., USMC, Deputy Commandant for 
  Manpower and Reserve Affairs, U.S. Marine Corps................     8
Van Buskirk, VADM Scott R., USN, Deputy Chief of Naval 
  Operations, Manpower, Personnel, Training, and Education, U.S. 
  Navy...........................................................     7
Woodson, Dr. Jonathan, Assistant Secretary of Defense for Health 
  Affairs........................................................     4
Wright, Hon. Jessica L., Acting Under Secretary of Defense for 
  Personnel and Readiness........................................     3

                                APPENDIX

Prepared Statements:

    Bromberg, LTG Howard B.......................................    59
    Davis, Hon. Susan A..........................................    29
    Jones, Lt Gen Darrell D......................................    93
    Milstead, LtGen Robert E., Jr................................    84
    Van Buskirk, VADM Scott R....................................    73
    Wilson, Hon. Joe.............................................    27
    Wright, Hon. Jessica L., joint with Dr. Jonathan Woodson.....    30

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................   109
    Mr. Jones....................................................   109
    Mr. Scott....................................................   110

Questions Submitted by Members Post Hearing:

    Ms. Shea-Porter..............................................   113
   IMPACT OF THE CONTINUING RESOLUTION, SEQUESTRATION, AND DECLINING 
  OPERATIONS AND MAINTENANCE BUDGETS ON MILITARY PERSONNEL AND FAMILY 
                            RELATED PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                         Washington, DC, Wednesday, March 13, 2013.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, the hearing will come to 
order. The subcommittee today will, once again, focus on the 
challenges of maintaining an All-Volunteer Force in a budget-
constrained environment by looking at the impacts on military 
personnel and family related programs.
    These programs such as morale, welfare and recreation, 
childcare, military exchanges, commissaries and family 
services, which include Department of Defense, DOD schools, are 
vital to maintaining the readiness of the military.
    Since most of these programs are staffed by civilians, the 
furloughing of military civilian personnel has a huge impact on 
these programs to include our medical treatment facilities.
    Although the Department and the Services have made 
commitments to minimize the impact a continuing resolution and 
sequestration will have on these programs, especially those 
impacting wounded warriors and families, there will be 
reductions and it will affect the daily lives of our service 
members and their families to include retirees.
    The committee will hear from the witnesses on how the 
continuing resolution and sequestration and declining 
operations and maintenance accounts will impact the military 
personnel and family programs, which have been crucial for 
maintaining an All-Volunteer Force of extraordinary people 
during the more than 10 years of war.
    Although the House has passed a defense appropriations bill 
for the remainder of fiscal year 2013, the Senate has yet to do 
so and the threat of a yearlong CR [continuing resolution] is 
still there.
    It is a challenge for the Services to manage these programs 
without a timely budget and, unfortunately, CRs have become the 
norm. I would like to welcome our distinguished witnesses.
    The Honorable Jessica L. Wright, Acting Under Secretary of 
Defense for Personnel and Readiness, and I do want to note also 
a 35-year veteran of the Army National Guard of Pennsylvania 
and a retired major general. Wow, what a background. So we 
appreciate your service.
    It is wonderful to have Dr. Jonathan Woodson back, 
Assistant Secretary of Defense for Health Affairs. We have 
Lieutenant General Howard B. Bromberg, Deputy Chief of Staff 
(G-1), Department of the Army.
    We have Vice Admiral Scott R. Van Buskirk, the Deputy Chief 
of Naval Operations, Manpower, Personnel, Training, and 
Education, Department of the Navy.
    Lieutenant General Robert E. Milstead, Jr., the Deputy 
Commandant, Manpower and Reserve Affairs, United States Marine 
Corps; and Lieutenant General Darrell D. Jones, Deputy Chief of 
Staff for Manpower, Personnel and Services, Department of the 
Air Force.
    Ms. Davis, did you have any opening comments?
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Yes. Thank you, Mr. Chairman.
    And welcome to all of you for being here. Thank you, again, 
for joining in with us this morning and also for your service. 
Thank you very much.
    Mr. Chairman, as you know, this is the second hearing that 
we are having on the impact the Budget Control Act and the 
additional impact sequestration and uncertainty surrounding the 
remaining fiscal year 2013 budget is having specifically on 
military personnel and family related programs.
    As I noted at our first hearing, the Budget Control Act has 
already had an impact on the Services, particularly the Army 
and the Marine Corps.
    The impact of sequestration has just added another 
challenging dimension for the Services and, in particular, the 
many personnel and family programs including potentially the 
military medical programs and services.
    On March 1st, sequestration became a reality for this 
country and the significant effects are just now slowly being 
seen in Federal programs across the country.
    The Department of Defense is not exempted from its effects 
and although military personnel accounts are not subject to 
sequestration in fiscal year 2013, these accounts are not 
protected over the remaining 9 years nor are the myriad of 
family and service programs that support our Armed Forces 
exempt from the impact of sequestration.
    These significant reductions will only be compounded when 
the continuing resolution under which our Government, including 
the Department of Defense, are operating under ends and that is 
at the conclusion of this month.
    The full committee has a held a number of hearings on the 
impact of the Budget Control Act, sequestration, and the 
continuing resolution, but none of the hearings, including our 
subcommittee, has focused on potential solutions to this 
dilemma.
    Unfortunately, the only people who have the ability to 
resolve this issue is Congress. We must find common ground and 
be willing to compromise for the long-term stability of our 
Nation.
    Today, we will be able to hear the unfortunate impacts that 
this lack of compromise is having on our Armed Forces and their 
families. I look forward to working with my colleagues on this 
committee and in the House to develop a rational, a commonsense 
approach to resolving these challenges.
    Thank you, Mr. Chairman. And, again, we look forward to 
hearing from our witnesses.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 29.]
    Mr. Wilson. Thank you very much, Mrs. Davis.
    Secretary Wright, we will begin with your testimony. As a 
reminder, please keep your statements to 3 minutes. We have 
your written statements for the record. And, again, thank you 
all for being here today.

STATEMENT OF HON. JESSICA L. WRIGHT, ACTING UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Ms. Wright. Thank you, sir.
    Chairman Wilson, Ranking Member Davis, distinguished 
members of the committee, we thank you for the opportunity to 
discuss the immediate and long-term impacts of sequestration as 
mandated by the Budget Control Act of 2011 and the potential 
ongoing continuing resolution for fiscal year 2013 on the 
Department of Defense military personnel and family programs 
and total readiness.
    We testified before this subcommittee on February 27th 
about the negative impacts to our military personnel and force 
structure. And, today, we are here to provide specifics on the 
wide range of military and civilian program impacts.
    This includes recruiting, training, medical and support 
programs that sustain our All-Volunteer Force and that are 
relied on every day by service members and their families.
    On 1 March, the President ordered the Joint Committee 
sequestration as required by law affecting immediate reduction 
of the budget authority of approximately $41 billion across our 
Department.
    And there is a potential additional $6 billion across the 
Department. Combined, this would be $46 billion in 2013 for a 
total of 9 percent of the total budget to be implemented in the 
last 7 months.
    In order not to break faith with our service members, the 
President used his authority to exempt the military personnel 
accounts from sequestration.
    Although I wholeheartedly agree with this decision, the 
results are larger decrements on other defense accounts and, 
most notably, the O&M [Operations & Maintenance] accounts to 
compensate for this.
    While we are going to protect our warfighters' military 
pay, we cannot do this without the cost of readiness for our 
force. The backbone of this great military institution is our 
people.
    Active, National Guard, and Reserve service members as well 
as the civilians who serve throughout the country and the world 
are the Department's greatest assets.
    However, due to the O&M cuts in our military, personnel 
will receive reduced training leading to diminishing readiness 
and ultimately diminishing morale.
    Even as we seek to protect our family programs where 
feasible service members and family support programs will be 
impacted across the board because of funding decrements and 
that will affect the quality of life.
    Our career civilian workforce has not seen a pay raise in 
several years and they are likely to be subject to 22 days of 
furlough beginning late April through September.
    This equates to a 20-percent reduction in their pay and 
significant impacts to their families and the economic impact 
to the communities which they live.
    We are currently reviewing the priority of family programs 
and how to minimize the impact and the effects of sequestration 
to our service members and families.
    Although the purpose of sequestration is to evenly cut all 
programs, we will seek to preserve these services as much as 
practicable. We have to make hard trade-off decisions to lessen 
these impacts and determine how to absorb these impacts.
    We understand the Department of Defense must do its part in 
addressing the Nation's budget cuts and we must do it in a 
responsible and judicious manner.
    I want to thank you for the opportunity to speak with you 
today and I look forward to your questions. I now turn to Dr. 
Woodson who will provide a statement on the Defense health 
program.
    [The joint prepared statement of Ms. Wright and Dr. Woodson 
can be found in the Appendix on page 30.]
    Mr. Wilson. Thank you.
    Thank you, Dr. Woodson.

   STATEMENT OF DR. JONATHAN WOODSON, ASSISTANT SECRETARY OF 
                   DEFENSE FOR HEALTH AFFAIRS

    Dr. Woodson. Good morning. Chairman Wilson, Ranking Member 
Davis, distinguished members of the committee, thank you for 
the opportunity to discuss the immediate and long-term impacts 
of sequestration on the Department of Defense's military health 
system and our medical mission.
    The President, the Secretary of Defense, and now the Under 
Secretary, Ms. Wright, have outlined, in stark terms, both the 
short- and long-term negative effects that sequestration will 
have our national security, our military readiness and the 
public servants in our Department who serve so selflessly and 
deserve better.
    Before I discuss the specific consequences for military 
medicine under sequestration, I want to highlight that we 
cannot and will not compromise care.
    First, our commitment to quality of care is sacrosanct. We 
will not allow quality to suffer or place any patient at risk, 
period. The Department will also ensure that care provided to 
our wounded warriors is maintained.
    Our continued focus on their medical treatment and 
rehabilitation will continue. It is our goal to make sure that 
the wounded warriors, from their perspective, they shall see no 
difference in care they receive before, during, or after 
sequestration.
    And we will sustain our close collaboration with our other 
Federal and private partners, specifically the Department of 
Veterans Affairs.
    Finally, to the greatest extent possible, we will sustain 
our access to our military hospitals and clinics for service 
members, their families, retirees and their families.
    But sustaining patient care functions during sequestration 
comes at a cost. The Department will reduce funding from a wide 
range of other essential investments. This could produce 
significant negative long-term effects on the military health 
system.
    By directing all resources to the provision of patient care 
under sequestration, we will have less funding to address 
military medical facility maintenance and the needed 
restoration and modernization projects. This will negatively 
affect the health care environment and potentially drive 
substantial bills for facility maintenance in the future.
    While we will continue to fund projects that directly 
affect patient safety or that affect emergent care, we could 
see a degradation in the aesthetic quality and functionality of 
our medical facilities.
    This can impact the morale of both medical staff and 
patients and can degrade the patient's experience of health 
care within our military health system.
    Many of our facilities are older and require substantial 
upkeep. To delay these medical facility projects only 
exacerbates the problem and, ultimately, the medical staff and, 
more concerning, the patients suffer the consequences. This is 
not a sustainable strategy.
    In order to continue our health care operations, we will 
reduce our investment in equipment. This means our equipment 
will be used longer and require more maintenance.
    Research and development will also be affected and to 
minimize the impact on care, we will be taking monies from the 
research and development programs to fund the delivery of care.
    Forty percent of our military medical centers are staffed 
by civilians and as a result of the furlough program access may 
be impacted.
    While we understand the Department of Defense must do its 
part in addressing the Nation's budget concerns, however, we 
have a responsibility to do this smartly and judiciously. The 
path forward with sequestration is neither.
    We hope that Congress will take the required action to 
avert the sequestration and its full impact. I thank you for 
the opportunity to speak with you today on these matters and I 
look forward to your questions.
    [The joint prepared statement of Dr. Woodson and Ms. Wright 
can be found in the Appendix on page 30.]
    Mr. Wilson. Thank you, Dr. Woodson.
    General Bromberg.

   STATEMENT OF LTG HOWARD B. BROMBERG, USA, DEPUTY CHIEF OF 
                     STAFF, G-1, U.S. ARMY

    General Bromberg. Chairman Wilson, Ranking Member Davis, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today on behalf of America's 
Army. The magnitude of today's fiscal uncertainty will have 
grave consequences on our soldiers, civilians, and families.
    If nothing is done to mitigate the effects of operations 
under the continuing resolution, shortfalls in our overseas 
contingency operations, and the enactment of sequestration, the 
Army will be forced to make potentially dramatic cuts to 
military personnel and family programs funded by the 
Operational Maintenance Account.
    The shortfall in OMA [Operational Maintenance Account] in 
the last 7 months of fiscal year 2013 will impact on our 
ability to continue to recruit high-quality soldiers vital to 
the all-volunteer Army.
    Sequestration will cause high risk to our effort in fiscal 
year 2013 to recruit the future soldier entry pool and may 
result in mission failure into fiscal year 2014.
    Much of the Army's officer corps is commissioned through 
and initially trained at the United States Military Academy and 
through ROTC [Reserve Officers' Training Corps] programs at 
colleges and universities across the country. Sequestration 
will adversely impact scholarships and training and subsequent 
commissioning of lieutenants.
    Under sequestration, there will be a significant impact on 
professional military education that officers and non-
commissioned officers need to advance their career.
    Loss of training, as you know, is not recoverable and leads 
to untrained soldiers and units, a negative impact to near-term 
readiness and also a loss of confidence in the stability of the 
Army that it provides could damage recruiting and retention for 
many years to come.
    Family programs provide a comprehensive network of 
resources that allow soldiers, civilians, family members, and 
retirees to successfully navigate their way through Army life 
and deployments.
    We will focus on delivering programs that provide the most 
benefit to our Army family; however, we anticipate many 
programs will be impacted such as child abuse preventions; 
intervention programs and other family advocacy programs; 
support to families with children with special needs; 
resiliency training that assists soldiers and families in 
building stronger relationships; post recreation centers; 
bowling alleys; libraries and such.
    Sequestration is not in the best interest of our country, 
our soldiers, or our national security. Our current fiscal 
uncertainty has already resulted in the cancellation of 
training, through reduction of services to Army families, and 
reductions in the civilian workforce.
    I ask for your support to find viable solutions to economic 
hurdles that face our Army. Chairman Wilson, Ranking Member 
Davis, and members of the subcommittee, I thank you for the 
opportunity and I look forward to your questions.
    [The prepared statement of General Bromberg can be found in 
the Appendix on page 59.]
    Mr. Wilson. Thank you, General. And we proceed to Admiral 
Van Buskirk.

 STATEMENT OF VADM SCOTT R. VAN BUSKIRK, USN, DEPUTY CHIEF OF 
NAVAL OPERATIONS, MANPOWER, PERSONNEL, TRAINING, AND EDUCATION, 
                           U.S. NAVY

    Admiral Van Buskirk. Chairman Wilson, Ranking Member Davis, 
and distinguished members of the committee, thank you for 
holding this hearing.
    The confluence of sequestration and the continuing 
resolution is causing reduced levels of operations, canceled 
maintenance and training and constraining investment in future 
capability and capacity.
    The situation has caused adjustments in deployment 
schedules resulting in uncertainty and disruption in the lives 
of our Navy families.
    Additionally, the furlough of the nearly 186,000 civilians 
and the attendant 20-percent pay reduction will significantly 
affect them and their families.
    The absence of this highly skilled workforce impacts our 
ability to sustain critical family support programs and operate 
our educational institutions and learning centers. The hiring 
freeze and the release of over 650 temporary workers aggravates 
the situation.
    As we go forward to the maximum extent possible, we will 
minimize impacts on family and sailor readiness programs.
    We will remain determined to avoid adverse impacts in the 
programs that address sexual assault prevention, alcohol 
awareness and deglamorization, drug detection and abuse 
prevention, Navy Safe Harbor wounded warriors support, suicide 
prevention and resiliency, casualty assistance and funeral 
support and child care.
    However, reductions to Navy recruiting, marketing and 
advertising have already reduced capacity to build awareness 
and generate leads. We also expect to reduce summer training 
for U.S. Naval Academy midshipmen and cancel science, 
technology, engineering and mathematics, STEM, camps.
    We expect similar impacts at the War College and 
postgraduate school, each of which plays a critical role in 
developing our sailors and supporting our mission including 
joint education, research and war gaming.
    We are currently reassessing our tuition assistance program 
to ensure we can continue to meet current educational 
obligations and fulfill the educational goals of every sailor 
who desires to enroll.
    Our hiring freeze has brought to a virtual standstill our 
highly successful efforts to provide jobs for veterans, 
severely hampering our ability to recruit a quality and skilled 
workforce.
    Sustaining discretionary cap reductions through 2021 would 
fundamentally change the Navy as currently organized, trained, 
and equipped, and drive further reductions in strength and 
implementations of force management tools that break faith with 
our All-Volunteer Force.
    As such, we rescue enactment of the fiscal year 2013 
defense appropriations bill as soon as possible and we ask for 
greater flexibility to reprogram funds between accounts so we 
that can allocate reductions in a manner that protects our 
sailors and their families while sustaining current operations 
pursuant to defense strategic guidance and national defense 
strategy.
    Thank you. I look forward to your questions.
    [The prepared statement of Admiral Van Buskirk can be found 
in the Appendix on page 73.]
    Mr. Wilson. Thank you very much, Admiral.
    And General Milstead.

   STATEMENT OF LTGEN ROBERT E. MILSTEAD, JR., USMC, DEPUTY 
 COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

    General Milstead. Good morning. Chairman Wilson, Ranking 
Member Davis, and distinguished members of the subcommittee, it 
is my privilege to appear before you today.
    I have previously submitted my written statement for the 
record and I look forward to answering your questions. Thank 
you.
    [The prepared statement of General Milstead can be found in 
the Appendix on page 84.]
    Mr. Wilson. Thank you, General.
    General Jones.

  STATEMENT OF LT GEN DARRELL D. JONES, USAF, DEPUTY CHIEF OF 
        STAFF FOR MANPOWER AND PERSONNEL, U.S. AIR FORCE

    General Jones. Chairman Wilson, Ranking Member Davis and 
distinguished members of the committee, it is my honor to once 
again appear before you today representing the 690,000 total 
force airmen serving this great Nation around the world.
    Two weeks ago, I expressed the growing angst our force is 
experiencing over the uncertainty of sequestration. Now, we 
find ourselves in uncharted territory.
    Their concerns continue to grow as the short- and long-term 
effects of sequestration become a reality. The Air Force is 
committed to our role of training and equipping the highest 
quality airmen for our combatant commanders.
    This commitment requires a continuous and focused 
investment to recruit, train, support, and retain a world-class 
All-Volunteer Force. Unfortunately, sequestration frustrates 
these efforts which, ultimately, undermine the readiness and 
responsiveness our Nation expects of our fighting forces.
    Specifically, sequestration will have an immediate and 
long-lasting impact on recruiting and accession efforts. We are 
particularly concerned about the impact furloughs will have on 
the military entrance processing center's support to 
accessions.
    Further, we many not be able to fully fund vital 
developmental programs for our airmen as we have in the past.
    As an example, on Monday evening, the Secretary of the Air 
Force, after the discussions with OSD [Office of the Secretary 
of Defense] and the other Services, came to the difficult 
decision to suspend military tuition assistance for the 
remainder of fiscal year 2013.
    This action, along with other potential limitations in our 
developmental opportunities, will impact our ability to harness 
the full potential of our airmen as they continue to operate in 
increasingly complex threat environments.
    Although we intend to guard airmen and family support 
programs as much as possible, they, too, ultimately will 
realize the effects of sequestration.
    This may force us to make hard decisions to determine what 
support services we can afford to provide under sequestration 
versus the programs our airmen deserve. All of us before you 
today have served during lean times. Those of us serving during 
those periods recall the frustration we felt with the lack of 
resources needed to build and sustain a world-class military.
    The result was an Air Force with degraded readiness levels 
and waning morale which led to growing recruiting and retention 
problems. We realize the fiscal challenges we face are real and 
require all of us to take action.
    However, sequestration dictates arbitrary impacts on 
military readiness. We urge Congress to take appropriate action 
and find an alternate solution.
    Our airmen, officers, enlisted, and civilians remain 
dedicated to this Nation. They are the same dedicated and 
innovative hard-working professionals I have witnessed since 
the day I joined the Air Force.
    However, I am concerned we are sending them the wrong 
signal as they are the ones burdened with the threat of 
furloughs, decreased training opportunities, and reduction in 
support programs.
    I know you share my concerns and I appreciate your concern 
for our airmen and look forward to answering your questions.
    [The prepared statement of General Jones can be found in 
the Appendix on page 93.]
    Mr. Wilson. Thank you, General.
    And thank all of you for being here today. And I 
particularly appreciate the very positive comments by Ranking 
Member Susan Davis and that we will, in every way, I look 
forward to working with her, to work with you to address the 
very serious challenges that each of you face.
    And we have worked together in the past and I am just 
confident that this subcommittee will continue to be available 
to you.
    As we proceed, I have said so many times, because I have 
seen it with my family, I know what military service meant to 
my dad, to my sons, to me. Military service is opportunity for 
people to achieve their highest ability, a fulfilling life.
    And, indeed, General, to have world-class personnel make a 
difference protecting American families but also opportunity 
for fulfillment. And I just truly am grateful for your service.
    We will be on a 5-minute question and I have already gone 
through my first minute and we have someone, Craig Greene, who 
is very proficient at maintaining time. So this is good.
    As we face the issues, General Bromberg, General Milstead, 
the impact of sequestration on accessions, the impact of 
reducing marketing and advertising budgets, how do you see this 
affecting our ability to recruit, indeed, world class 
personnel?
    General Bromberg. Yes, sir. First, our first challenge will 
be on training our newest crop of recruiters. Given where we 
see ourselves right now with sequestration and the budget 
affecting the Operational Maintenance Account for travel and 
TDY [Temporary Duty], we will have about 900 less recruiters 
that we will be able to put in the field.
    We won't send untrained recruiters to the field obviously, 
but we will just have to with fewer recruiters and that reduces 
your ability to penetrate the markets we need to penetrate 
across America.
    The second place is the military entrance processing 
stations. Given the furlough situation, we estimate that we are 
going to have to close those centers down about 1 day a week, 
about a 20-percent reduction given the furloughing.
    What that means across the Services, the Army's the 
executive agent, it means it will affect all the Services when 
we close it down. We are going through the analysis right now, 
but it could affect up to 10-14,000 less recruits being 
processed across the Services at this point there.
    And the third thing I would point out, as you mentioned, 
sir, is the advertising. As we lose that advertising capability 
over the year and the ability to penetrate into those markets, 
it not only affects this year, but what I am concerned about is 
that future pool that you get, what we call the delayed entry 
pool or the future soldier pool.
    Those are the soldiers we get this year that go on to help 
us build for force for next year.
    I think those are the three biggest impacts to accession. 
It is a long-term effect here of not putting recruiters in the 
field, slowing down the processing stations, and also the 
marketing. Thank you for the question, sir.
    Mr. Wilson. Thank you.
    And General Milstead.
    General Milstead. Yes, sir. We are already at a lean amount 
this year. We are about $80 million for our advertising. We 
couldn't get it any better. Next year, we hope to get back up 
to 90, but that is above and beyond sequestration.
    So we are challenged with a reduced advertising budget. 
What this equates to is lead generation and lead generation 
equates to the numbers of contracts and the numbers of 
contracts equates to the number of people that you can put 
those yellow footprints--their feet on the yellow footprints.
    And as the Army has just mentioned, you know, I echo 
everything that they say. Our recruiters are already working 
hard. They are working in excess of 60 hours a week already and 
this is just going to put an additional burden on them.
    I would, very quickly, like to use the analogy of an 
iceberg because advertising is more than just what you see on 
TV. Like an iceberg, the majority of it is below the water 
line, what is not seen. And is the mail-outs, it is the call 
center, it is the Web sites, it is all that sort of support 
that goes into getting young men and women to become 
interested, lead generations and to join the Marine Corps.
    And I guess the last thing I would want to echo is the MEPS 
[Military Entrance Processing Station], those processing 
centers. We are already seeing that they are going to come off 
on a Friday. So, now, we are losing one-fifth of the day. We 
are not going to get Saturdays anymore. And so this is going to 
be a significant challenge for us.
    Mr. Wilson. And, again, thank both of you. I have the 
privilege of representing Fort Jackson. I have represented 
Parris Island so I have seen firsthand the opportunities 
provided for young people.
    I have actually stood on the yellow footprints--footsteps 
where young marines as they have the privilege of their first 
formation, that is where they stand.
    And so I want to thank you both for what you are doing. 
However we can help on that.
    And, Dr. Woodson, you indicated that military health care 
will be maintained for our personnel to the highest of 
standards and I appreciate that commitment and I know that must 
be reassuring to our military service members and families.
    I am concerned though that Secretary Hale has suggested 
that, as of August, the Department may not be able to pay 
physicians who provide services to retirees under TRICARE 
[defense health care program].
    Can you tell us if that is accurate and what other impacts 
of sequestration that the--on health care services for TRICARE 
beneficiaries?
    Dr. Woodson. Thank you very much for that question. As you 
know, under sequestration and the mandatory reductions in 
budget, the defense health program gets assessed about a $3.2 
billion reduction, with about half of that coming out of the 
private-sector-care account. Without flexibility to do 
reprogramming, we would in fact see a shortfall as based upon 
prior years' experience in paying those accounts.
    What we clearly need to do as part of the strategy to 
ensure continuity of payment is to have, number one, 
flexibility in moving money around. We would like sequestration 
to be detriggered. That is clearly the most important thing.
    But we need flexibility. If we don't get flexibility, then 
we could see a shortfall. And then that has second- and third-
order consequences. It could slow the paying of claims.
    Now, one of the things that TRICARE can be most proud of, 
and why we have good network support from private-sector 
physicians, is that we pay on time. We don't want to erode that 
trust and do irreparable damage to our networks that would take 
years to repair. So we need to have flexibility moving money 
around in order to prevent shortfalls. We are carefully looking 
at utilization rates, because that will also influence how much 
money is available to pay claims. If by some chance we have a 
marked rise in utilization, of course, that represents more 
money that is needed to pay in the private sector.
    Right now, our inflation rate is at a reasonable amount of 
about 3 percent to 4 percent. And so if we get flexibility in 
terms of moving money around, we will probably be able to meet 
the claims need. But that is clearly a risk going forward.
    Mr. Wilson. And you believe you would be able to pay after 
August with flexibility?
    Dr. Woodson. With flexibility in moving substantial money 
out of other investment accounts, we probably can meet that 
requirement if everything else remains the same.
    Mr. Wilson. Thank you very much. And Congresswoman Davis.
    Mrs. Davis. Thank you. And thank you again for being here. 
I wonder if you could take us to the decisionmaking table, if 
you would, and talk a little bit more about the family-related 
programs, the impact from sequestration on the immediate, and 
then going out over the next several years.
    And I wonder if you could share with us that decisionmaking 
based on the merit of programs. Do you have information that 
would suggest that, you know, we have been going with these 
programs for a while, we haven't seen a real impact? We maybe, 
you know, want to change the way we approach this particular 
family program, or something else? Do you have some data that 
you are using? And on what basis are you making those 
decisions?
    I think the other question is about reprogramming. So given 
the ability, the authority to reprogram, where you see programs 
that are working well, where do you go for some of that 
reprogramming? Secretary Wright, would you care to start?
    Ms. Wright. Yes, ma'am. Mr. Chuck Miland is the deputy in 
our family program network. And he is embarking upon a 120-day 
review of all the programs within the family system, because, 
you are right, there are programs that have met the metrics and 
produce great results.
    And then there are programs that maybe cost a lot of money, 
but haven't met specific metrics. I can't tell you which ones 
those are presently, because we are doing the review. But we 
recognize the need that after 10 years of protracted war, and 
the development of multiple programs that support our families, 
that some are excellent, and some may not produce the results 
that we need.
    So when that 120-day review is done, then we will be able 
to give you a better understanding of where we need to shift 
our efforts, and maybe do away with some, or combine some to 
give the bigger bang for our buck to our members of our 
families.
    Mrs. Davis. When did that 120 days start? How long have you 
been looking at that?
    Ms. Wright. I think we have about 2 more months to go. But 
may I get back to you on the exact date? Because I don't have 
it off the top of my head.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mrs. Davis. Does that mean--just to follow up, does that 
mean that we really haven't been evaluating programs all along?
    Ms. Wright. No. I think that we have been evaluating 
programs. But I think this is where we take the OSD broadband 
perspective of the programs, and look at all of them.
    And we are doing them through the Family Readiness Council 
that we have established, where services are represented, 
family members are represented, NGOs [Non-Governmental 
Organization] are represented. So this is not just an exclusive 
OSD look. We are very inclusive to how we are doing this--this 
100-day review.
    Ms. Davis. Okay. Thank you. Anybody else want to respond in 
terms of how you see that, your decisionmaking table?
    General Bromberg. Yes, ma'am. I would like to--from the 
Army's perspective, first of all, just the furloughing piece to 
put in perspective, that is how most of these services deliver 
through civilian employees down at the installations, the post-
camps and stations, whether it be a weekend training for 
families, or whether it be prevention through spouse abuse, 
domestic violence, or those types of things. So there is going 
to be an immediate impact just in the overall amount of service 
we can deliver.
    As far as assessing the programs, we are also doing that as 
we speak. We have just announced our Ready and Resilient 
campaign plan. The Secretary of the Army did that earlier this 
week. And one of the purposes of that program is to put all our 
programs together, start comparing and contrasting.
    Because in some cases we have anecdotal data, some places 
we have hard analysis, and some places we don't have any 
analysis. So we know that there is some complementary programs, 
but there is also some that are probably redundant as well.
    And so we are going to go through that during the first 
phase of the campaign plan, is to lay all those programs out. 
Example, we know Strong Bonds, which works on family 
relationships during deployments and other stressors, is very, 
very popular. It is also very important. And it has reduced 
domestic violence, as well as it has reduced divorce rates and 
some other things.
    But we haven't done the hard analysis with Strong Bonds, is 
the best example. So we will be partnering with OSD as we go 
through this.
    Mrs. Davis. Okay.
    Admiral Van Buskirk. Yes, ma'am. I would like to just add 
one point, and that is one of the great things about my job--
and I am sure it is the same with my colleagues--is that we get 
to go out and engage, and meet our sailors, and whole town 
halls, and all-hands calls, and hear from them about their 
concerns.
    And what is interesting is what I don't hear about often. 
And what I don't hear about right now is our quality-of-life 
programs, and our family-and-sailor-support programs.
    I think that is indicative of our strong investment that we 
have made in these programs throughout the years. Ten years 
ago, 15 years ago, I think that would have been a different 
case. So I think that is really critically important, that 
those have been meaningful programs, and we have invested 
wisely in our sailors and their families.
    That said, most recently, though, as I have gone out to 
meet and conduct town halls, it is the biggest question out 
there is, are those services going to remain? What is going to 
be the impact on the families? What is going to be an impact on 
the services? What hours of operation?
    So I think in terms of metrics, that is something that we 
should think about in terms of so often what we don't hear 
about in terms of how well the programs are working. Thank you.
    Mrs. Davis. Thank you.
    Mr. Wilson. Thank you very much, Mrs. Davis. And we now 
proceed to Mr. Jones of North Carolina.
    Mr. Jones of North Carolina. Mr. Chairman, thank you very 
much. And to each one at the panel, thank you for your service 
and your commitment to young men and women in uniform.
    I sit here in amazement to think about the problems that 
you have. And here we are having Mr. Karzai trying to injure 
our new Secretary of Defense. We are spending roughly $6 
billion to $8 billion a month in Afghanistan. It is a failed 
policy.
    We in Congress will certainly be debating sequestration, 
and where we are going to make the cuts or not, keep putting 
pressure on you to provide our men and women in uniform, their 
families, adequate programs. And yet, I doubt if Mr. Karzai's 
worried a bit about his budget.
    I come from Eastern North Carolina, the home of Camp 
Lejeune. I did a radio show this morning at 8 o'clock. And this 
issue came up, the sequestration. And I talked about being here 
today to listen to you and my colleagues, and just how 
ridiculous it is that our men and women in uniform who are our 
heroes, as you are, who deserve so much, and here we are 
hearing you worried to death about, can you provide the quality 
they have earned. And yet, Karzai is over that. I do not 
understand why the Congress does not say ``cut the money off.'' 
Let's spend the money here in America. Let's rebuild our 
military. Let's rebuild our equipment. Let's give them what 
they were promised.
    And I hope as we move forward on this--this year, with this 
sequestration, and how we are going to balance the budget, that 
there will be enough members of Congress in both parties to 
start cutting the funding in Afghanistan, and have that funding 
come back here to America, and help you take care of our men 
and women in uniform.
    It is going to take the American people to put pressure on 
us. Because obviously, you are in uniform. You cannot do it. 
You are with the Administration. You cannot do it.
    But the American people need to understand that the 
problems you are facing today, there are no problems for the 
government of Afghanistan. They are going to get their money.
    And when John Sopko, the Inspector General for 
Reconstruction, testified recently, spoke at some group 
meeting, and he said we are spending $235 million a day in 
Afghanistan, very little accountability. And I hear you today 
worried to death about your people, our people, our heroes. It 
doesn't make any sense.
    That brings me to a point, Dr. Woodson, and thank you, sir, 
for being in my office many times to talk about issues. I do 
appreciate that. The book written--excuse me--by Joe Stiglitz 
called The Three Trillion Dollar War [The Three Trillion Dollar 
War: The True Cost of the Iraq Conflict], co-authored by Linda 
Bilmes, professor at Harvard, this book was written 6 years 
ago. And they were talking about the wounded, both physically 
and mentally, coming back from Afghanistan.
    They didn't even factor in--excuse me, Iraq. They didn't 
even factor in Afghanistan. And they are talking about $3 
trillion. If you factor in Afghanistan, I have been told that 
the book title would be closer to $5 trillion.
    With this sequestration coming forward, my biggest concern 
is those who are sitting in the barracks, some in the wounded 
warrior barracks, who have severe mental problems, obviously 
when they leave the military, you would have nothing to do with 
them. That is usually the V.A. [U.S. Department of Veterans 
Affairs], I understand that.
    But do you have a concern that as this moves forward--and 
it is not going to be fixed overnight. It is not going to be 
fixed overnight,that we are going to run into a problem in a 
couple or 3 years with those who are still in the military that 
have PTSD [Post-Traumatic Stress Disorder] or TBI [Traumatic 
Brain Injury]. Can we take care of them?
    Dr. Woodson. Thank you very much for that question and the 
example. About 52 percent of our behavioral health specialists 
are civilian. And if sequestration goes forward with its full 
impact, I do have concerns that over the long term, how we 
sustain our robust capability to provide mental-health care to 
the force, and by extension, to family members or retirees that 
we serve, for a couple of different reasons. One, most 
immediately, is the impact of furloughs that these civilians 
will be impacted. But also, as we discuss these very thorny 
issues relative to sequestration, remember our workforce is 
looking at what we are doing.
    And many of these talented individuals have options. They 
have options to seek employment elsewhere. They have been 
committed to wounded warriors and the military of the United 
States in these challenging times. But they have options.
    And I worry about sustaining the workforce, particularly 
the most talented individuals who can go elsewhere. So it is 
about the impression we leave in our commitment to them, and 
recruiting and retaining individuals to support the Nation's 
military. So I am concerned.
    Mr. Jones of North Carolina. Thank you, Mr. Chairman.
    Mr. Wilson. And thank you, Mr. Jones. And we proceed to Ms. 
Tsongas of Massachusetts.
    Ms. Tsongas. Thank you all for being here, and for your 
testimony. You certainly are living through very challenging 
times. And I come from a district in which we have a tradition, 
a multigenerational tradition of service.
    I am always so proud of those who serve on our behalf. And 
I appreciate all that you are trying to do as you assess the 
impact of sequestration on the services that we provide for 
those who are serving.
    I have a follow-up question, really, to Mr. Jones'. Several 
months ago, I had the opportunity to visit Walter Reed. And I 
have to say I was so impressed with the quality of care I 
witnessed.
    Clearly, a significant amount of progress has been made 
since the unfortunate out-stories we heard, and the national 
outrage that emerged a few years ago, which came in response to 
those reports of dilapidation and unacceptable standards of 
care for our recovering wounded warriors.
    But one of the things which impressed me the most at Walter 
Reed in this most recent visit was just the care provided to 
amputees. The facility provides state-of-the-art prostheses.
    I have never seen anything like it; lightweight and 
tailored for any number of different applications, enabling our 
recovering heroes to live as normal a life as possible under 
unimaginable circumstances.
    And it was pointed out to me during this visit that these 
devices are the state of the art. They are the product of 
robust research and development, which as we know, takes 
tremendous financial investments to make, and in all 
likelihood, more advanced than anything, funded through the 
V.A.
    So my impact--my concern then is what the impact would be 
of sequestration have on future medical R&D [Research and 
Development], whether it is continuing around those who have 
suffered and sustained such horrific physical losses, but also, 
as Mr. Jones talked about, traumatic brain injury, PTSD, again, 
the issue of suicide and suicide prevention, the product of 
long service in our Services, just how you see your capacity to 
continue to make the kinds of investments that help these 
wounded warriors go forward with their lives?
    Dr. Woodson. Again, thank you very much for that question 
and that comment, though. As you have indicated, the military 
health system has much to be proud of in terms of its history 
of research, particularly in those areas that affect military 
personnel and the combat-wounded.
    You know, it is very important to recognize that the 
military health system, with all of its collaborators, have 
achieved the lowest disease in non-battle-injury rates every in 
recorded warfare, and the highest survivability rates in any 
recorded warfare. So there is much to be proud of.
    But that is threatened by sequestration. Because in order 
to pay the bills for immediate delivery of care, as indicated 
earlier, we are going to have to shift those funds from our 
investments in research to the provision of care. That is going 
to slow or stop many of these research projects.
    Now, our strategy does prioritize wounded warrior research. 
But the cuts will be deep and steep, and delay progress. So, 
you know, we have already mentioned the impact of furloughs.
    Many of our researchers are part of the civilian community 
as well. We have collaborators in the civilian sector. And the 
grants will be slowed. So this is a real serious issue that has 
potential long-term negative consequences. And that is why this 
process, this budgeting process, is so illogical.
    Ms. Tsongas. Does anybody else want to comment on what 
their concerns are?
    General Milstead. Our wounded warrior regiment has 62 GS 
[General Schedule] employees. So they will be susceptible to 22 
days of furlough. We are also about 80 percent of our wounded 
warrior, we use mobilized marines, reservists. So and that--I 
have to pay them. That comes out of my small sliver of 
discretionary money.
    The Marine Corps, as of yesterday, we have had 13,362 
marines have, you know, are wearing a Purple Heart, and have 
been wounded, anything from a single bullet wound to, you know, 
bilateral amputation. We are going to take care of them.
    But besides them, you know, 44 percent of our wounded 
warrior regiment are noncombat. It is the young lance corporal 
as she pulls out of a stoplight, she gets T-boned by a drunk 
driver. We are going to take care of her. It is the master 
sergeant that has cancer that we are working with.
    So this is going to be around for a while. And as Dr. 
Woodson said, we are concerned that there is going to be some 
challenges in maintaining the care. But to the maximum extent 
possible, we are going to take care of our wounded, ill, and 
injured. And we will do so at the expense of lesser-priority 
programs.
    Ms. Tsongas. Thank you. I think I have run out of time. But 
I think you have made very real, the impact of sequestration, 
across-the-board cuts.
    Mr. Wilson. Thank you very much, Ms. Tsongas. And we 
proceed now to Mr. Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman. Ladies and gentlemen, I 
am sorry that I had to step out for a second.
    I want to talk to you, General Jones, specifically about 
the 116th Air Control Wing, and the JSTARS [Joint Surveillance 
Target Attack Radar System]. They are at Robins Air Force Base, 
which is the heart of my district. As you know, that platform 
flies continuously. I don't think they have stopped in 20 
years, that there hasn't been a day without one of those planes 
in the air.
    The impact of the furloughs on the entire workforce is a 
concern to us. But specifically to the JSTARS, it is Active 
Duty and National Guard. It has a tremendous number of dual 
status technicians. It is a crucial ISR [Intelligence, 
Surveillance, and Reconnaissance] platform that we have to have 
in multiple regions of the country.
    And so my question is, is the Air Force looking at ways to 
mitigate the impact on these types of furloughs that are 
mission-critical? And do you have sufficient flexibility to 
exempt certain personnel in those mission-critical areas?
    General Jones. Sir, thank you for that question. We all 
appreciate the importance of the JSTARS, and its companion 
aircraft, AWACS [Airborne Warning and Control System], is 
around the world. I have a personal commitment. My son has an 
air-battle manager that rides in the back of the AWACS. So I 
know exactly what you are talking about.
    We would be unable to completely mitigate the effects of 
the 22-day furlough on these units, because to do that, we 
would need something in the order of 144,000 man-days. And 
historically, the Air Force has had about 5,000 man-days in the 
normal course, not counting OCO [Overseas Contingency 
Operations] funds.
    So we wouldn't be able to totally mandate--exempt them from 
the effects of sequestration. However, we do have a program in 
place that allows the Guard and the Reserve and the Active Duty 
to come forward and ask for exceptions to the program. We have 
done that. And the Guard and the Reserves have been able to use 
that to ask for exceptions.
    When I say ``exceptions,'' I don't mean a total exemption 
from the effects of the furlough, but maybe a lessening of the 
impact for their most mission-critical units, and their most 
mission-critical activities.
    So there will be some mitigation of the impact. But it is 
related mostly to the mission, not to the impact on the 
individual. Although, everyone will feel the pain.
    Mr. Scott. Thank you, General. And I will tell you, I voted 
against the sequester. I say it every time I get the 
opportunity. I think it is bad policy. I think that there is 
room in the DOD for savings. I think the procurement process 
can certainly be improved.
    It is somewhat beyond me how much we spend, for example, 
$10 million for the development of the sniper rifle, when quite 
honestly, think we could have gone to Fort Benning at the 
sniper competition and simply asked those men and women that 
were shooting in it, what they would like to have, and could 
have saved a lot of money.
    But I appreciate your concern about this issue. And I am 
extremely concerned about the fact that the sequester is going 
to affect mission-critical operations while we are engaged in 
so many conflicts throughout the world.
    Mr. Chairman, thank you for time to ask that question. 
Ladies and gentlemen, I appreciate you being here.
    Mr. Wilson. Thank you, Mr. Scott. And because of the 
extraordinary issues that you are raising, I know several of us 
have follow-up questions.
    I, in particular, again, Dr. Woodson, I share with Ms. 
Tsongas my visits to medical facilities. It really is world-
class. And the wounded warriors, I want to thank all of you for 
working with our young people to truly get them back on track 
and leading fulfilling lives.
    In regard to moving funds around, there have been excess 
funds in the private-sector-care account, Dr. Woodson, the last 
3 years. Could some of that money be used to ameliorate the 
$3.2 billion reduction?
    Dr. Woodson. Thank you. As you know, we have put in place a 
number of management controls to try and reduce the rise in the 
cost of care. And many of these management strategies have paid 
off. And as a result, last year, because of pharmacy rebates 
and a number of other initiatives, we had additional funds.
    We have already factored in these management strategies in 
looking at the availability of funds for the private-sector 
care. And even factoring them in, we realized that we would 
come up short. And that is the reason we will need to reprogram 
money in order to pay all the private-sector-care bills.
    Mr. Wilson. Well, whatever we can do on the reprogramming, 
please let us know. And again, I want to commend you on the 
excess funds, is not necessarily negative. It is that you are 
being very responsible.
    Mrs. Davis.
    Mrs. Davis. Thank you. I wanted to just turn for a minute 
to the--to suspension of tuition assistance. I know the Marine 
Corps, Army, and the Air Force, could you share with us how 
important is that, the number--maybe not the actual number, but 
how many service members are really counting on this tuition 
assistance?
    And if in fact that is suspended, what other options do 
they have? And how impactful is that really in terms of the 
integrity of the Service itself in trying to provide that as 
really a kind of promise, I think, that we have made to our 
service personnel?
    General Milstead. Well, the Marine Corps, we have $47 
million in it this year. To date, as of the beginning of this 
month, we had obligated $28 million. So we spent $28 million. 
So that is 5 months. So we have got 5 months into the year, and 
we have already spent over half of the money.
    Again, you know, we have our Category A programs. We had 
those mission-essential programs for the families. We have all 
talked about them here. We have talked about health care for 
our wounded warriors, sexual assault prevention, suicide 
prevention, combat-operational stress, family readiness, all 
these key programs.
    We are going to have to rob Peter, if you will, to pay 
Paul. You know, once a marine has got 3 years of service, he 
rates 100 percent of his post-9/11 GI Bill. We--it is just a 
matter of priorities. And if everything is a priority, nothing 
is a priority.
    And so we have made the decision to truncate the program, 
and to take that money, and to use it to shore up a Category A 
program, and help us maintain our high-priority programs.
    General Bromberg. Ma'am, in the Army, our budget is about 
$383 million for tuition assistance. And that goes for Active 
Duty soldiers, as well as National Guard, United States Army 
Reserve soldiers. It also helps pay for nonscholarship ROTC 
cadets, to help them offset the cost of tuition.
    Similar to the Marine Corps, we have spent over half 
already. So we felt we had to turn it off at this point. Right 
now, we are actually out of money in that program, and to look 
at reprioritization across the force.
    The soldiers do have opportunities for GI Bill, 
particularly soldiers who have been in over 3 years. So that is 
another option for them. And also, they have other options they 
can look at through in Reserves and National Guard through 
State and local programs that are separate funds by the States.
    It is just a sheer matter of prioritization. It has been a 
very good program for many, many years. But for us, $383 
million, is that the right amount? We are going to go back and 
relook at the program. Should we--how do we prioritize it?
    I think we can probably take at least $115 million in 
savings in this program, and still turn some back on, but 
probably not to the same extent that we have it today. But the 
soldiers have come--become very reliant on the program. And it 
is a big culture change for us. But in these times, it is----
    Mrs. Davis. Are we able to provide the kind of information 
to them, where there are some other options out there, at least 
to work with some of our counterparts?
    General Bromberg. Particularly for the Reserves soldiers, 
yes, ma'am.
    Mrs. Davis. Okay. That would be helpful. Just quickly on 
the reprogramming, and talking about the medical situation, 
there is not one service member who should come back and not 
have all the services that are there.
    But I am wondering, as we see fewer really egregious 
injuries coming back, are the numbers going down to the point 
that some of the services that are available and are 
particularly high level of care could be shifted to another 
area? Or are all of those personnel being used today, even 
though those numbers fortunately are down, are down from 
certainly the height of the war?
    Dr. Woodson. Yes. That is a great question. And so we have 
looked at that. And, you know, one of the signature or two of 
the signature issues coming out of the current decade of war 
have been mental-health issues and TBI issues, which are not 
solved by sort of short-term care, and require a more enduring 
set of services to really address the complicated issues.
    So specifically to your question, yes, we have seen a 
reduction in casualties coming back. But we haven't seen a 
reduction in the need for mental health and behavioral health 
services.
    We are staffed to certainly deliver all of the medical care 
that individuals need. But over time, the effects of 
sequestration will erode those, and make those inadequate for--
--
    Mrs. Davis. I guess part of the concern is we may have more 
medical specialists, but fewer behavioral specialists.
    Secretary Woodson. Well, that is exactly the point. If you 
look at the increases in medical personnel, far and away, the 
increases have been in behavioral health, that behavioral 
health component.
    So we haven't expanded necessarily, let's say, the number 
of trauma surgeons, or the number of urologists, et cetera. But 
we have expanded dramatically the number of behavioral-health 
specialists, recognizing these issues are going to be 
persistent for some time.
    Mrs. Davis. Okay, thank you.
    Mr. Wilson. And thank you, Mrs. Davis. And we proceed to 
Mr. Jones.
    Mr. Jones of North Carolina. Mr. Chairman, thank you. And 
General Bromberg and General Jones, I think in relationship to 
what Mrs. Davis was saying, I got a call this past weekend from 
a grandmother in my district wanting to know why her son in the 
United States Army, I think he has been in about a year--that 
he and a buddy went to a local community college, and they were 
encouraged to take a course or something. I don't know the 
details, I really don't.
    But anyway, her concern was what she shared with me, was 
after they went to the community college, and they signed up 
for classes, they were then told by the Army that they could 
not continue. I guess what I am trying to ask is, as we move 
forward and I don't expect you to have that today.
    But if the Services could, if you got this information, 
based on sequestration, the number of young men and women in 
the branches that are being told they cannot continue, if there 
is any way to get that kind of information, I think the 
committee, at least I would, maybe Mrs. Davis as well, and the 
Chairman and other members would like to kind of see it. You 
know, seeing helps some of us, maybe not all, understand.
    And if there are going to be these numbers, and if the 
sequestration continues, which apparently it is going to for a 
period of time, if we could see, just get an idea or a trend of 
young men and women who are applying to take some additional 
courses that have been told we cannot fund it any longer, if 
that is possible, I would appreciate it if we could get some 
numbers on that as we move forward, not today, but as we move 
forward.
    [The information referred to can be found in the Appendix 
on page 109.]
    General Jones. Congressman Jones, when we made the decision 
last night, I think it speaks to the fact that how urgent 
sequestration and the impacts are for us.
    We made that decision which impacted 115,000 airmen which 
were signed up for tuition assistance. They were taking 277,000 
courses at 1,200 universities across the Nation. And so that 
was a real impact at that moment.
    Now, we did not shut off the program for anybody who is in 
the program now. They could continue that course they were in. 
If we had said the course was funded, we certainly met that 
obligation and funded that course. But it is the next course 
that they would try to sign up for.
    And we only suspended it for this fiscal year. And we are 
going to reevaluate it for fiscal year 2014 to decide how much 
we can offer. We feel like we are going to do everything we can 
to offer a program in fiscal year 2014. But realistically, we 
are going to have to adjust the parameters of the program to 
lessen the budgetary impact on our Air Force.
    General Bromberg. Yes, sir. Same here. When we made the 
decision to suspend it for the rest of the year, it was for 
those that had not enrolled yet. And there has been some 
confusion--I have gotten some feedback as soldiers tried to run 
down to colleges and universities, and sign up right away, but 
they weren't actually enrolled yet through the official site. 
That was one disconnect.
    But I can tell you, in the last couple days, we announced 
it, and tried to get everybody at least 72 hours' notice, we 
were burning through $500,000 an hour. And so we quickly--
actually, we did overspend. And we will take care of that 
internally.
    But that was the kind of activity there was, and how 
popular of a program it is. So we did shut it off at that 
point. And we will be very happy to come back and brief or 
provide in great detail. We have over 200,000 soldiers across 
all three components enrolled on a daily basis in tuition 
assistance.
    Mr. Jones of North Carolina. I would appreciate that. Thank 
you both.
    Mr. Wilson. And yes, Mr. Scott.
    Mr. Scott. Just very briefly, General Bromberg, you said 
that your cost of the tuition was $383 million a year, is 
before the cut?
    General Bromberg. Yes, sir. That is what we programmed as 
we budgeted $383 million for fiscal year 2013.
    Mr. Scott. And how much is your cut?
    General Bromberg. Right now, we stopped at a little over 
$200 million of what we spent so far. I can get you the exact 
numbers where we ended up on----
    [The information referred to can be found in the Appendix 
on page 110.]
    Mr. Scott. $183 million, somewhere around $180 million. 
General Milstead, you said yours was $47 million, and you 
stopped it at $28 million?
    General Milstead. That is correct, sir. $47.5 million is 
what we budgeted in the fiscal year 2013 line. And when we 
truncated the program, we obligated $28 million.
    Mr. Scott. So about a $20 million cut?
    General Milstead. About, yes, sir.
    Mr. Scott. Admiral, what would your numbers be on that?
    Admiral Van Buskirk. This year, we are targeted to spend 
about $84 million for that. That gets tuition assistance for 
all people who are eligible, who desire to pursue tuition 
assistance. So $84 million.
    As of this point, we are about a little over about $40 
million have been spent. We have not suspended tuition 
assistance in the Navy at this point. And for us, it is about 
45,000 people who participate in a year.
    Currently, we have about 27,000 participating. So if we 
were to suspend it, it would immediately affect 20,000 people 
who have planned, based upon their deployment schedules, based 
upon their lives and their families, to pursue it. So it would 
be affecting them if we were to suspend the program.
    Mr. Scott. Yes, sir. General Jones.
    General Jones. Sir, we had spent about $196 million in 
fiscal year 2012. And fiscal year 2013, we thought it would be 
$198 million. But with the truncation, it is going to be less 
than that. I will have to get you that exact number. I don't 
have that in front of me.
    [The information referred to can be found in the Appendix 
on page 110.]
    Mr. Scott. General Milstead, I think you summed it up with 
what I think is a frustration that every American is feeling 
right now as we watch the impact of the sequester. We are 
cutting mission-critical things. We are cutting things like 
tuition for our men and women that are serving.
    You said that when everything is a priority, nothing is a 
priority. And the reason we are in this situation we are 
fiscally, is because over the last several years, we have not 
been able to figure out what the priorities of the budget 
should be.
    You are talking about somewhere just above $200 million in 
what is going to be taken out of this program, that is going to 
have a tremendous impact on men and women that are out there 
serving. $183 million from the Army, $20 million from the 
Marines. Obviously there will be an impact from the Air Force 
as well.
    That is approximately a tenth of what we spend on free cell 
phones in this country a year. And that, ladies and gentlemen, 
is the problem. The men and women that are out there fighting 
for this country are paying a price, because Congress has 
refused to get rid of things that we never should have been 
paying for in the first place.
    With that, I yield my time back to the chairman.
    Mr. Wilson. Thank you very much, Mr. Scott. And I want to 
thank, again, all of you for being here and the extraordinary 
challenges and issues you are facing. And I know that we have 
faith in you, that you will make every effort for our service 
members, military families, and retirees.
    If there is no further comment, we shall be adjourned.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]


=======================================================================



                            A P P E N D I X

                             March 13, 2013

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2013

=======================================================================


                      Statement of Hon. Joe Wilson

           Chairman, House Subcommittee on Military Personnel

                               Hearing on

          Impact of the Continuing Resolution, Sequestration,

            and Declining Operations and Maintenance Budgets

           on Military Personnel and Family Related Programs

                             March 13, 2013

    The Subcommittee today will once again focus on the 
challenges of maintaining an All-Volunteer Force in a budget-
constrained environment by looking at the impacts on military 
personnel and family related programs.
    These programs, such as Morale, Welfare and Recreation; 
Child Care; Military Exchanges; Commissaries; and Family 
Services which include DOD Schools, are vital to maintaining 
the readiness of the military. Since most of these programs are 
staffed by civilians, the furloughing of military civilian 
personnel has a huge impact on these programs, to include our 
medical treatment facilities. Although the Department and the 
Services have made commitments to minimize the impact a 
continuing resolution and sequestration will have on these 
programs, especially those impacting wounded warriors and 
families, there will be reductions and it will affect the daily 
lives of our service members and their families, to include 
retirees.
    The committee will hear from the witnesses on how the 
continuing resolution, sequestration, and declining operations 
and maintenance accounts will impact the military personnel and 
family programs, which have been crucial for maintaining an 
All-Volunteer Force during more than 10 years of war. Although 
the House has passed a Defense Appropriations bill for the 
remainder of fiscal year 2013, the Senate has yet to do so and 
the threat of a yearlong CR is still there. It is a challenge 
for the Services to manage these programs without a timely 
budget, and unfortunately CRs have become a norm.
    I would like to welcome our distinguished witnesses:

        <bullet> LThe Honorable Jessica L. Wright, Acting Under 
        Secretary of Defense for Personnel and Readiness;
        <bullet> LDr. Jonathan Woodson, Assistant Secretary of 
        Defense for Health Affairs;
        <bullet> LLieutenant General Howard B. Bromberg, Deputy 
        Chief of Staff, G-1, Department of the Army;
        <bullet> LVice Admiral Scott R. Van Buskirk, Deputy 
        Chief of Naval Operations, Manpower, Personnel, 
        Training, and Education, Department of the Navy;
        <bullet> LLieutenant General Robert E. Milstead, Jr., 
        Deputy Commandant, Manpower and Reserve Affairs, United 
        States Marine Corps; and
        <bullet> LLieutenant General Darrell D. Jones, Deputy 
        Chief of Staff for Manpower, Personnel and Services, 
        Department of the Air Force.

                    Statement of Hon. Susan A. Davis

        Ranking Member, House Subcommittee on Military Personnel

                               Hearing on

          Impact of the Continuing Resolution, Sequestration,

            and Declining Operations and Maintenance Budgets

           on Military Personnel and Family Related Programs

                             March 13, 2013

    Mr. Chairman, this is the second hearing that we are having 
on the impact the Budget Control Act, and the additional impact 
sequestration and uncertainty surrounding the remaining fiscal 
year 2013 budget is having specifically on military personnel 
and family related programs.
    As I stated at our first hearing, the Budget Control Act 
has already had an impact on the Services, particularly the 
Army and the Marine Corps. The impact of sequestration has just 
added another challenging dimension for the Services, and in 
particular, the many personnel and family programs, including 
potentially the military medical programs and services.
    On March 1st, sequestration became a reality for this 
country, and the significant effects are just now slowly being 
seen in Federal programs across the country. The Department of 
Defense is not exempted from its effects and although military 
personnel accounts are not subject to sequestration in fiscal 
year 2013, these accounts are not protected over the remaining 
9 years nor are the myriad of family and service programs that 
support our Armed Forces exempt from the impact of 
sequestration.
    These significant reductions will only be compounded when 
the continuing resolution under which our Government, including 
the Department of Defense, are operating under ends at the end 
of this month. The full committee has held a number of hearings 
on the impact of the Budget Control Act, sequestration, and the 
continuing resolution, but none of the hearings including our 
subcommittee hearing has focused on potential solutions to this 
dilemma. Unfortunately, the only people who have the ability to 
resolve this issue is Congress. We must find common ground and 
be willing to compromise for the long-term stability of our 
Nation. Today, we will hear the unfortunate impacts that this 
lack of compromise is having on our Armed Forces and their 
families.
    I look forward to working with my colleagues on this 
committee and in the House to develop a rational, commonsense 
approach to resolving these challenges. Thank you, Mr. 
Chairman. I look forward to hearing from our witnesses. 


[GRAPHIC] [TIFF OMITTED] 80186.001

[GRAPHIC] [TIFF OMITTED] 80186.002

[GRAPHIC] [TIFF OMITTED] 80186.003

[GRAPHIC] [TIFF OMITTED] 80186.004

[GRAPHIC] [TIFF OMITTED] 80186.005

[GRAPHIC] [TIFF OMITTED] 80186.006

[GRAPHIC] [TIFF OMITTED] 80186.007

[GRAPHIC] [TIFF OMITTED] 80186.008

[GRAPHIC] [TIFF OMITTED] 80186.009

[GRAPHIC] [TIFF OMITTED] 80186.010

[GRAPHIC] [TIFF OMITTED] 80186.011

[GRAPHIC] [TIFF OMITTED] 80186.012

[GRAPHIC] [TIFF OMITTED] 80186.013

[GRAPHIC] [TIFF OMITTED] 80186.014

[GRAPHIC] [TIFF OMITTED] 80186.015

[GRAPHIC] [TIFF OMITTED] 80186.016

[GRAPHIC] [TIFF OMITTED] 80186.017

[GRAPHIC] [TIFF OMITTED] 80186.018

[GRAPHIC] [TIFF OMITTED] 80186.019

[GRAPHIC] [TIFF OMITTED] 80186.020

[GRAPHIC] [TIFF OMITTED] 80186.021

[GRAPHIC] [TIFF OMITTED] 80186.022

[GRAPHIC] [TIFF OMITTED] 80186.023

[GRAPHIC] [TIFF OMITTED] 80186.024

[GRAPHIC] [TIFF OMITTED] 80186.025

[GRAPHIC] [TIFF OMITTED] 80186.026

[GRAPHIC] [TIFF OMITTED] 80186.027

[GRAPHIC] [TIFF OMITTED] 80186.028

[GRAPHIC] [TIFF OMITTED] 80186.029

[GRAPHIC] [TIFF OMITTED] 80186.030

[GRAPHIC] [TIFF OMITTED] 80186.031

[GRAPHIC] [TIFF OMITTED] 80186.032

[GRAPHIC] [TIFF OMITTED] 80186.033

[GRAPHIC] [TIFF OMITTED] 80186.034

[GRAPHIC] [TIFF OMITTED] 80186.035

[GRAPHIC] [TIFF OMITTED] 80186.036

[GRAPHIC] [TIFF OMITTED] 80186.037

[GRAPHIC] [TIFF OMITTED] 80186.038

[GRAPHIC] [TIFF OMITTED] 80186.039

[GRAPHIC] [TIFF OMITTED] 80186.040

[GRAPHIC] [TIFF OMITTED] 80186.041

[GRAPHIC] [TIFF OMITTED] 80186.042

[GRAPHIC] [TIFF OMITTED] 80186.043

[GRAPHIC] [TIFF OMITTED] 80186.044

[GRAPHIC] [TIFF OMITTED] 80186.045

[GRAPHIC] [TIFF OMITTED] 80186.046

[GRAPHIC] [TIFF OMITTED] 80186.047

[GRAPHIC] [TIFF OMITTED] 80186.048

[GRAPHIC] [TIFF OMITTED] 80186.049

[GRAPHIC] [TIFF OMITTED] 80186.050

[GRAPHIC] [TIFF OMITTED] 80186.051

[GRAPHIC] [TIFF OMITTED] 80186.052

[GRAPHIC] [TIFF OMITTED] 80186.053

[GRAPHIC] [TIFF OMITTED] 80186.054

[GRAPHIC] [TIFF OMITTED] 80186.055

[GRAPHIC] [TIFF OMITTED] 80186.056

[GRAPHIC] [TIFF OMITTED] 80186.057

[GRAPHIC] [TIFF OMITTED] 80186.058

[GRAPHIC] [TIFF OMITTED] 80186.059

[GRAPHIC] [TIFF OMITTED] 80186.060

[GRAPHIC] [TIFF OMITTED] 80186.061

[GRAPHIC] [TIFF OMITTED] 80186.062

[GRAPHIC] [TIFF OMITTED] 80186.063

[GRAPHIC] [TIFF OMITTED] 80186.064

[GRAPHIC] [TIFF OMITTED] 80186.065

[GRAPHIC] [TIFF OMITTED] 80186.066

[GRAPHIC] [TIFF OMITTED] 80186.067

[GRAPHIC] [TIFF OMITTED] 80186.068

[GRAPHIC] [TIFF OMITTED] 80186.069

[GRAPHIC] [TIFF OMITTED] 80186.070

[GRAPHIC] [TIFF OMITTED] 80186.071

[GRAPHIC] [TIFF OMITTED] 80186.072

[GRAPHIC] [TIFF OMITTED] 80186.073

[GRAPHIC] [TIFF OMITTED] 80186.074

[GRAPHIC] [TIFF OMITTED] 80186.075

[GRAPHIC] [TIFF OMITTED] 80186.076

?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 13, 2013

=======================================================================

      
              RESPONSES TO QUESTION SUBMITTED BY MR. JONES

    General Bromberg. With the passing of H.R. 933, Consolidated and 
Further Continuing Appropriations Act 2013, each of the Services is 
fully funding tuition assistance programs through Fiscal Year 13, up to 
$250 a semester hour and with a $4,500 annual cap.
    The Military Services' tuition assistance program enables service 
members the opportunity to achieve their academic goals, contributes to 
their professional development, and facilitates transition from the 
Armed Forces.
    Each Service is responsible for funding and administering its 
tuition assistance program in accordance with the law and the 
Department of Defense tuition assistance policy. [See page 20.]

    Admiral Van Buskirk. Navy has been steadfast in its commitment to 
sustain the Tuition Assistance (TA) program. The Chief of Naval 
Operations has assured Sailors that TA will ``remain intact and 
available''; therefore, Sailors should not expect to be told they 
cannot continue. While fiscal pressures will necessitate continued 
scrutiny of all investments, we are committed to our original fiscal 
year plans to meet Sailor education requirements.
    Additionally, we continue to invest in related programs that ensure 
the success of each Sailor who benefits from these funds. Our course 
completion rate is well over 90 percent, which we attribute in part to 
the exceptional support our Sailors receive from trained Navy education 
counselors. Each Sailor, working with a qualified counselor, must 
develop an appropriate educational plan, which the counselor must 
approve before TA funding can be approved and classes begin. Counselors 
ensure that Sailors are prepared for academic requirements associated 
with each Sailor's approved plan and help them streamline an attainable 
degree completion
process. [See page 20.]

    General Milstead. The Marine Corps is not able to determine if any 
marines attempted to enroll in courses but were subsequently impacted 
by the cancellation of the Tuition Assistance (TA) program between 
March 4, 2013 to April 8, 2013.
    The Department of Navy announced the immediate cessation of Marine 
Corps enrollments in the TA program and the Marine Corps immediately 
ceased new enrollments on 4 March 2013. As of 8 April 2013, TA funding 
has been restored and new enrollments are being accepted as announced 
in the Marine Administrative Messages (MARADMIN) 203/13 Voluntary 
Education Services and Tuition Assistance. The TA program cannot be 
retroactively applied. Marines who had requested TA prior to 4 March 
were not denied funds. [See page 20.]

    General Jones. Congressman Jones, our best estimate to determine 
how many Airmen might be affected by this decision moving forward is 
based on our fiscal year 2012 data. During the timeframe from 12 March 
2012 through 30 September 2012, 76,144 Airmen used Military Tuition 
Assistance. Since suspending our program 11 March 2013, we estimate a 
similar number of Airmen will be affected through the end of fiscal 
year 2013 should the program remain suspended to the end of the fiscal 
year. [See page 20.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    Ms. Wright. The Common Services Task Force held its first meeting 
on February 6, 2013, and is currently expected to complete its work in 
120 days. As background, in November 2012, my office established this 
Task Force to review the total cost and methods of providing common 
services for military member and family support programs Department of 
Defense-wide. These programs include NAF procurement and accounting, 
lodging, fitness and family program management to, to name a few. The 
objectives of the Task Force are the following:

        <all>  Maintain the Department of Defense's strategy and 
        commitment to the well-being of military members and their 
        families, delivering the same or better levels of programs and 
        services
        <all>  Improve effectiveness, efficiency, and economy in the 
        delivery of programs within the purview of the Office of the 
        Deputy Assistant Secretary of Defense for Military Community 
        and Family Policy, along with their related overhead and 
        headquarters functions
        <all>  Drive down both the appropriated fund and the 
        nonappropriated fund (NAF) unit cost of providing programs and 
        services to military members and their families
        <all>  Through shared services or similar models for common 
        support, enable greater economies of scale than the individual 
        military departments can achieve independently
        <all>  Retain a portion of the initial savings to cover 
        transition costs and offset program shortfalls

     [See page 12.]
                                 ______
                                 
              RESPONSES TO QUESTION SUBMITTED BY MR. SCOTT
    General Bromberg. With the passing of H.R. 933, Consolidated and 
Further Continuing Appropriations Act 2013, each of the Services is 
fully funding tuition assistance programs through Fiscal Year 13, up to 
$250 a semester hour and with a $4,500 annual cap.
    The Military Services' tuition assistance program enables service 
members the opportunity to achieve their academic goals, contributes to 
their professional development, and facilitates transition from the 
Armed Forces.
    Each Service is responsible for funding and administering its 
tuition assistance program in accordance with the law and the 
Department of Defense tuition assistance policy. [See page 21.]

    General Jones. As of 11 March 2013 when the decision was made to 
suspend Military Tuition Assistance, the Air Force had expended 
approximately $109M for the program. [See page 22.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2013

=======================================================================

      
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. In your testimony, you note that while the 
Services' Yellow Ribbon Reintegration Program funding is protected 
under Overseas Contingency Operations, the OSD's Yellow Ribbon Program 
office will likely be impacted by sequestration and the CR and that 
this ``will reduce our ability to support events for deploying/
reintegrating service members and their families.'' Our New Hampshire 
National Guard has an outstanding Yellow Ribbon program that helps 
post-9/11 service members and their families address issues before, 
during, and after deployment. These programs need to be robustly 
funded. Can you talk about the specific impact of sequestration and the 
CR on our Nation's Yellow Ribbon programs?
    Ms. Wright. [The information was not available at the time of 
printing.]
    Ms. Shea-Porter. How will Professional Military Education at the 
military academies or other defense educational institutions be 
impacted by sequestration cuts and furloughs? Many professors are 
civilians. Our cadets and midshipmen at the academies, and military 
officers at the other institutions, need to receive instruction to 
complete their degree requirements. It matters greatly if they are less 
well trained and educated because of these cuts. Are you extending the 
academic year? Will there be furloughs of the civilian professors? If 
so, how will you manage with the loss of 20% of teaching time per 
civilian professor? What other impacts will there be to Professional 
Military Education at the academies and other defense educational 
institutions?
    Ms. Wright. Unfortunately, the reality of the budget situation 
precludes excluding significant core programs from reduction, despite 
the negative impact on the development and sustainment of the All-
Volunteer Force. Nearly all education and training programs are 
affected and degraded to some degree. Potential civilian furloughs will 
reduce faculty available for teaching classes and staff that support 
the academic mission of the PME schools. In some cases, military 
faculty may have to fill the void developed by the loss of furlough 
days of teaching time per civilian professor, leaving minimal time for 
curriculum development.
    The Service Academies are similarly affected with broad cuts 
affecting many programs. They have implemented plans to assign military 
personnel from other duties at the Academies to cover academic 
training, but will not extend the academic year. The sequestration and 
the current CR will limit faculty research and professional 
opportunities negatively impacting PME faculty. Civilian faculty 
members, like their Service Academy colleagues, are expected to conduct 
scholarly research and remain engaged with their scholarly communities. 
Limiting faculty development may also adversely affect the relevancy 
and currency of PME curricula. The inability to do research and faculty 
development may lead to faculty losses as those individuals may seek 
better opportunities in the civilian academic world.
    Finally, limited funding will impact a variety of programs focused 
on ensuring a diverse learning environment. An example is the Visiting 
Professors program, which contributes to accreditation. An uncertain 
budget environment precludes adequate planning and creates the 
perception of instability and could make the Academies a less 
attractive option for the highest quality candidates. Additionally, 
summer and military training opportunities will be curtailed along with 
outreach and recruiting efforts negatively impacting current and future 
classes of cadets and midshipmen candidates. Facility and 
infrastructure projects necessary to provide an effective educational 
environment will also need to be deferred.

    Ms. Shea-Porter. In your testimony, you note that while the 
Services' Yellow Ribbon Reintegration Program funding is protected 
under Overseas Contingency Operations, the OSD's Yellow Ribbon Program 
office will likely be impacted by sequestration and the CR and that 
this ``will reduce our ability to support events for deploying/
reintegrating service members and their families.'' Our New Hampshire 
National Guard has an outstanding Yellow Ribbon program that helps 
post-9/11 service members and their families address issues before, 
during, and after deployment. These programs need to be robustly 
funded. Can you talk about the specific impact of sequestration and the 
CR on our Nation's Yellow Ribbon programs?
    Dr. Woodson. The OSD Yellow Ribbon Reintegration Program (YRRP) 
Office provides services and resources to the Reserve Components 
designed to take advantage of the economy of scale and the benefit of 
standardization. These services and resources are funded through the 
OSD YRRP base budget and will be impacted by sequestration in the 
following ways (percentages are based on current projected budget 
cuts):

        <bullet>  Awareness of and access to the Hero2Hired (H2H) 
        program to assist unemployed service members will be 
        diminished. Specific impacts are decreased use of the H2H 
        Mobile Job Store and kiosks at YRRP and other events; loss of a 
        new H2H mobile application; and a reduced number of events for 
        Employment Initiative Program outreach.
        <bullet>  OSD YRRP's Cadre of Speakers contract, which provides 
        trained, vetted instructors and briefers for the Services' YRRP 
        events, will be decreased currently the cadre support 30 events 
        per month this will be reduced to 20 events per month.
        <bullet>  Funding for the OSD YRRP fulfillment contract will be 
        cut by 39%; this contract provides standardized event materials 
        and handouts for the Services, including hand-held scanners 
        that provide accountability at YRRP events.
        <bullet>  OSD YRRP's ability to create and implement in-depth 
        surveys of program effectiveness, as well as the creation of 
        standardized training curriculum, will be reduced by half and 
        this will delay the implementation of the YRRP overall program 
        effectiveness evaluation.
        <bullet>  The field staffing contract funded through OSD YRRP 
        will be reduced from 12 months to 10 months. Field staff 
        provides assistance to Service event planners and resource 
        providers throughout the Nation.
        <bullet>  No funding (100% reduction) will be available for 
        advertising, market research and studies to support increased 
        awareness of YRRP and the resources it offers to service 
        members and their families.

    Ms. Shea-Porter. General Bromberg, in your testimony, you talk 
about the sequestration's impact on Transition Assistance, and indicate 
that the sequestration cuts to the ``Department of Labor, which assists 
the Department of Veterans Affairs and DOD with providing mandated 
transition assistance services, could impact compliance with VOW 
[Veterans Opportunity to Work (VOW) to Hire Heroes Act of 2011].'' 
Please tell me specifically what program cuts you envision and how they 
could harm our soldiers as they transition to civilian life.
    General Bromberg. I cannot address the specifics of what cuts 
Department of Labor (DOL) is considering. I can say that any reduction 
in the frequency of the 3-day DOL Employment Workshop or a reduction in 
the number of DOL counselors would directly impact delivery of 
services. Reduced frequency of classes or lack of counselors would 
create a backlog of Soldiers required to complete transition services. 
This backlog could have the potential for Soldiers to separate before 
they meet Career Readiness Standards and be VOW Act compliant. 
Additionally, the VOW Act increased the mandatory components of the 
Transition Assistance Program (TAP) that Soldiers must attend. We 
increased the throughput which has increased demand for follow-on 
classes and training. We are expected to reduce Department of the Army 
Civilian TAP staff hours by 20% due to furloughs.
    Warrior Transition Unit Soldiers, who often face expedited 
separation procedures, will find it even more difficult to find seating 
in TAP classes. These Warrior Transition Unit Soldiers will face an 
even higher risk of unemployment and other consequences faced by those 
in the high-risk populations. Lack of government employees due to 
furlough could require 1-day-a-week closure of TAP training facilities, 
decreasing frequency of the 3-day DOL Employment Workshop, Veterans 
Administration Benefits Briefing, and other TAP classes. Follow-on 
classes that teach interview skills, resume writing skills, salary 
negotiation, and dress for success would have to be curtailed in order 
to meet the basic tenets of the VOW Act.
    Ms. Shea-Porter. I am concerned when you mention that sequestration 
cuts could impact compliance with the law. With respect to military 
personnel in particular, can you describe other instances in which the 
Army may not be able to comply with the law due to sequestration cuts?
    General Bromberg. I cannot address the specifics of what cuts 
Department of Labor (DOL) is considering. I can say that any reduction 
in the frequency of the 3-day DOL Employment Workshop or a reduction in 
the number of DOL counselors would directly impact delivery of 
services. Reduced frequency of classes or lack of counselors would 
create a backlog of Soldiers required to complete transition services. 
This backlog could have the potential for Soldiers to separate before 
they meet Career Readiness Standards and be VOW Act compliant. 
Additionally, the VOW Act increased the mandatory components of the 
Transition Assistance Program (TAP) that Soldiers must attend. We 
increased the throughput which has increased demand for follow-on 
classes and training. We are expected to reduce Department of the Army 
Civilian TAP staff hours by 20% due to furloughs.
    Warrior Transition Unit Soldiers, who often face expedited 
separation procedures, will find it even more difficult to find seating 
in TAP classes. These Warrior Transition Unit Soldiers will face an 
even higher risk of unemployment and other consequences faced by those 
in the high-risk populations. Lack of government employees due to 
furlough could require 1-day-a-week closure of TAP training facilities, 
decreasing frequency of the 3-day DOL Employment Workshop, Veterans 
Administration Benefits Briefing, and other TAP classes. Follow-on 
classes that teach interview skills, resume writing skills, salary 
negotiation, and dress for success would have to be curtailed in order 
to meet the basic tenets of the VOW Act.
    Ms. Shea-Porter. How will Professional Military Education at the 
military academies or other defense educational institutions be 
impacted by sequestration cuts and furloughs? Many professors are 
civilians. Our cadets and midshipmen at the academies, and military 
officers at the other institutions, need to receive instruction to 
complete their degree requirements. It matters greatly if they are less 
well trained and educated because of these cuts. Are you extending the 
academic year? Will there be furloughs of the civilian professors? If 
so, how will you manage with the loss of 20% of teaching time per 
civilian professor? What other impacts will there be to Professional 
Military Education at the academies and other defense educational 
institutions?
    General Bromberg. There is no intent to extend the Academic Years 
for 2012-2013 or 2013-2014 at this time. The current furlough plan for 
the Military Academy allows flexibility for civilian professors to take 
their furlough days in the summer months after the end of the current 
academic year and before the start of the new academic year; however, 
many will elect to follow a 2-day-per-pay-period furlough to minimize 
financial impacts.
    The impact of furloughing civilian instructors as well as academic 
support staff will lead to reduced cadet contact hours, loss of 
instruction or condensed instruction, limited classroom preparation 
time, degraded new instructor training, changes in cadet schedules, 
reduced dedicated laboratory support for scientific labs and reduced 
weekday hours of operation for the library, closing the facility on 
Saturdays with limited hours on Sunday.
    Furloughs may disrupt work to ongoing accreditation preparation and 
development of self-assessment reports for the Accreditation Board for 
Engineering and Technology (ABET) and the Middle States Commission for 
Higher Education (MSCHE) with scheduled assessments in Fall 2014 and 
Fall 2015 respectively. These accrediting bodies could cite the Academy 
deficient in the lack of predictable funding and inconsistent faculty 
work schedules related to furloughs.
    Furlough requirements may reduce the number of civilian instructors 
available to teach summer term academic programs. This may divert 
available military instructors from supporting cadet summer training 
(Cadet Field Training, Cadet Basic Training and Cadet Leader 
Development Training) missions requiring additional Army task force 
support. Sequestration and furlough will also impact military training 
courses which support the Army accessions mission and readiness. 
Current Academy funding is insufficient to send the Graduating Class of 
2013 to initial military training Basic Officer Leadership Course 
(BOLC) within the first 6 months following graduation.

    Ms. Shea-Porter. How will Professional Military Education at the 
military academies or other defense educational institutions be 
impacted by sequestration cuts and furloughs? Many professors are 
civilians. Our cadets and midshipmen at the academies, and military 
officers at the other institutions, need to receive instruction to 
complete their degree requirements. It matters greatly if they are less 
well trained and educated because of these cuts. Are you extending the 
academic year? Will there be furloughs of the civilian professors? If 
so, how will you manage with the loss of 20% of teaching time per 
civilian professor? What other impacts will there be to Professional 
Military Education at the academies and other defense educational 
institutions?
    Admiral Van Buskirk. Navy and its educational institutions are 
evaluating possible impacts to academic programs resulting from 
sequestration, to include furlough of civilian professors along with 
most other civilian personnel employed within the Department of Navy. 
There are currently no plans to change the current academic year for 
the U.S. Naval Academy (USNA) or other defense educational 
institutions. If a furlough is implemented, it would not take place 
until after the current academic year is complete, though it would 
impact the academic year commencing August 2013. Mitigation efforts are 
currently under review.
    In addition to furloughs, the USNA may reduce summer training to 
include fleet experiences with submarine, aviation, surface warfare and 
Marine Corps communities; and seamanship and navigation training 
aligned with a reduction in USNA Yard Patrol craft operations and 
maintenance. The USNA has already canceled language, regional and 
cultural exposure for midshipmen during the spring semester and reduced 
opportunities during the summer training periods.

    Ms. Shea-Porter. How will Professional Military Education at the 
military academies or other defense educational institutions be 
impacted by sequestration cuts and furloughs? Many professors are 
civilians. Our cadets and midshipmen at the academies, and military 
officers at the other institutions, need to receive instruction to 
complete their degree requirements. It matters greatly if they are less 
well trained and educated because of these cuts. Are you extending the 
academic year? Will there be furloughs of the civilian professors? If 
so, how will you manage with the loss of 20% of teaching time per 
civilian professor? What other impacts will there be to Professional 
Military Education at the academies and other defense educational 
institutions?
    General Milstead. At the Marine Corps University, the most 
immediate impact will be the cancellation or reduction in the courses 
as follows:

        <bullet>  Reduction of Senior Enlisted PME student throughput
        <bullet>  Reduction of Senior Leader Development Program
        <bullet>  Senior Planner Course reduced from two to one per 
        year
        <bullet>  Elimination of the Reserve Officers Course
        <bullet>  Elimination of all conferences and symposia

    A significant long-term effect due to sequestration will be felt at 
Marine Corps Command and Staff College, the School of Advanced 
Warfighting, and the Marine Corps War College. While delivery of core 
professional military education (PME) curricula will continue, there 
will be a substantial decrease in depth of education due to:

        <bullet>  Absence of civilian faculty due to furloughs
        <bullet>  Cancellation of some classes due to reduced faculty 
        availability
        <bullet>  Reductions in information education technology 
        support
        <bullet>  Significant reduction in curricula related travel for 
        all programs
        <bullet>  Reduction in international engagement opportunities

    All civilian professors and support staff will be subject to 
furlough in accordance with policy.
    The Marine Corps University does not plan to extend this academic 
year.
    Sequestration impacts will likely have a wide ranging effect on the 
schools. Due to differences in both student body size and teaching 
methodology, each school will be addressed individually.
    Command and Staff College (CSC). Through the end of the current 
academic year, CSC will not be significantly impacted. CSC has a 
balanced military and civilian faculty, and classes will continue as 
scheduled. Classes with a civilian faculty lead instructor will be 
completed before furloughs are scheduled to begin. The same is true 
with Spring exams. However, furloughs will have an impact on the 
capstone exercise NINE INNINGS, which is scheduled for May. The 
College's leadership will mitigate the impact by the close management 
of faculty so as to not to disrupt the exercise in any fundamental way.
    If sequestration and furloughs continue past the August start date 
for the next academic year, momentum will be slowed going forward in 
faculty and curriculum development in both the short term and long 
term. We also anticipate having to modify next year's curriculum by 
providing more individual study and research time to balance the 
required furlough of faculty.
    School of Advanced Warfighting (SAW). In light of a small (three 
professors) resident civilian faculty at SAW, the only viable plan is 
to furlough professors on days they are not scheduled to teach. As with 
CSC, anticipated furloughs will have a limited impact on the current 
class since we are nearing the end of the academic year. However, if 
furloughs continue through the end of the fiscal year, they will have a 
significant impact on the AY13-14 class. Reduced faculty availability 
will negatively impact seminar preparation, staff rides, and planning 
exercises.
    Marine Corps War College (MCWAR). The current class should see 
limited impact, but the course will need to be restructured in order to 
accommodate furloughs of civilian faculty. As with the other schools, 
MCWAR will be attempting to accomplish 100% of their requirements in 
80% of the time. This has second- and third-order consequences; 
specifically, limited feedback and mentoring time with the
students.
    Other impacts include:

        <bullet>  Travel restrictions. Reduced travel from 
        sequestration and furloughs will have a negative impact on 
        faculty development, university outreach programs to civilian 
        institutions, and participation by visiting faculty designed to 
        enhance and develop the curricula of the MCU schools. Lack of 
        international travel is a concern as it plays an important role 
        in the MCWAR and SAW curricula and the education of officers.
        <bullet>  Faculty accession/recruiting. Sequestration will 
        adversely affect the ability to recruit and retain high-quality 
        faculty. Lack of adequate, competent faculty will jeopardize 
        MCU's regional accreditation from the Southern Association of 
        Colleges and Schools (SACS) and the ability to issue masters 
        degrees in three courses. Job security and stability is 
        essential to maintain quality faculty. Sequestration and 
        furloughs will degrade, if not eliminate faculty development 
        opportunities, essential for the instructor currency.
        <bullet>  IT Support. Sequestration will jeopardize our ability 
        to provide IT support for the new Warner Center for Advanced 
        Military Studies, designed to house CSC, SAW and History 
        Division. Construction for this facility begins April 2013. A 
        62% reduction in IT funding is anticipated if sequestration 
        occurs.
        <bullet>  Curriculum development and review. Currently the 
        Marine Corps University is undergoing a 2-year process of a 
        zero-based curriculum review, designed to thoroughly assess all 
        aspects of the curricula. This effort will be slowed or halted 
        due to reduced faculty availability.

    Ms. Shea-Porter. How will Professional Military Education at the 
military academies or other defense educational institutions be 
impacted by sequestration cuts and furloughs? Many professors are 
civilians. Our cadets and midshipmen at the academies, and military 
officers at the other institutions, need to receive instruction to 
complete their degree requirements. It matters greatly if they are less 
well trained and educated because of these cuts. Are you extending the 
academic year? Will there be furloughs of the civilian professors? If 
so, how will you manage with the loss of 20% of teaching time per 
civilian professor? What other impacts will there be to Professional 
Military Education at the academies and other defense educational 
institutions?
    General Jones. Sequestration cuts and furloughs will have limited 
impact on the United States Air Force Academy's Professional Military 
Education (PME) courses and civilian professors. Currently, PME 
requirements are covered both in Commandant of Cadets courses and in 
Dean of Faculty core academic courses.
    Sequestration presently does not affect PME courses provided by 
Commandant of Cadets since they are taught by Active Duty squadron 
commanders during commissioning education periods.
    If the Dean of Faculty does declare a shortfall in meeting the 
education requirements due to sequestration, the Commandant of Cadet 
programs would review existing capacity and lesson plans. Learning 
objectives that could no longer be taught in the Dean of Faculty core 
courses would be added to the PME courses.
    United States Air Force Academy civilian professors will be subject 
to furloughs. Under furlough they will have 20% fewer hours during the 
14-week furlough period beginning in June for contact with cadets for 
tutoring, lesson planning, and additional duties. As a result, our 
Active Duty members will cover the gaps. The United States Air Force 
Academy has no plan to extend the academic year due to sequestration 
cuts and furloughs.
    Although the Air Force has taken significant steps to mitigate the 
short- and long-term impacts of the sequestration cuts and furloughs to 
Air University (AU), impacts to AU PME courses and civilian professors 
cannot be avoided entirely. Currently, all short-term temporary duties 
for officer and enlisted PME, e.g. Squadron Officer School and 
Noncommissioned Officer Academies will be either considered for 
reduction and/or cancelled. A reduction to our short-term PME schools 
means fewer Airmen will be armed with the competencies deemed necessary 
to execute their duties and responsibilities.
    Long-term AU PME, which are usually courses 10-months or longer and 
require a permanent change of station, are considered mission critical. 
The Air Force will continue these education courses as scheduled. These 
include other sister service/joint Intermediate Developmental Education 
(IDE)/Senior Developmental Education (SDE) courses, Air Force 
Fellowships, and Advanced Academic Degrees (AADs). If the restrictions 
continue, this will have a long-term strategic effect on the 
credibility, retention, and academic credibility of the university's 
faculty and student production.
    At this time, Air University has no plans to extend the academic 
year. However, should these restrictions become protracted, it would 
potentially delay academic year 2014 graduation by 3 weeks, delay the 
start of academic year 2015 by 2 weeks, and possibly reduce student in-
resident opportunities by 20%.
    Other potential impacts include the potential for production will 
be delays for new curriculum across all programs, negatively affecting 
the currency and relevancy of PME. More importantly, the Air Force 
could have fewer strategists and warrior scholars at the Ph.D. level to 
leverage for mission accomplishment.

                                  <all>

</pre></body></html>
